      REDACTED FOR PUBLIC RELEASE




REVIEW OF THE TERRORIST SCREENING
   CENTER’S EFFORTS TO SUPPORT
   THE SECURE FLIGHT PROGRAM


       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 05-34
             August 2005



      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


      REVIEW OF THE TERRORIST SCREENING CENTER’S
                  EFFORTS TO SUPPORT
              THE SECURE FLIGHT PROGRAM

                             EXECUTIVE SUMMARY
      The National Commission on Terrorist Attacks Upon the United States
(9/11 Commission) recommended in its July 2004 final report that the
Department of Homeland Security’s (DHS) Transportation Security
Administration (TSA) assume responsibility for screening commercial airline
passengers and that in doing so the TSA use the information contained
within the federal government’s terrorist watch lists. The 9/11 Commission
further recommended that air carriers be required to provide the TSA with
the passenger information necessary to conduct such screening.

      Shortly thereafter, Congress passed the Intelligence Reform and
Terrorism Prevention Act of 2004, which directed the DHS to “commence
testing of an advanced passenger prescreening system that will allow the
Department of Homeland Security to assume the performance of comparing
passenger information . . . to the automatic selectee and no-fly lists, utilizing
all appropriate records in the consolidated and integrated terrorist watchlist
maintained by the Federal Government.” In response to this directive, in
August 2004 the TSA announced an initiative known as “Secure Flight.”

      The consolidated terrorist watch list (known as the Terrorist Screening
Database, or the TSDB) that will be used in the Secure Flight screening process
was developed by the Terrorist Screening Center (TSC). The TSC, established
through Homeland Security Presidential Directive-6 on September 16, 2003, is
a multi-agency effort administered by the Federal Bureau of Investigation (FBI)
to consolidate the government’s approach to terrorist screening. 1 The TSC
operates a round-the-clock call center to field inquiries from state and local law
enforcement, border inspectors, and government agents abroad who have
screened the identity of an individual and received a hit against the
consolidated watch list of known or suspected terrorists.

       We conducted this review of the TSC’s actions with regard to Secure
Flight in response to House Report 109-072, which directed the Office of the
Inspector General to evaluate the TSC’s plan to support the Secure Flight
program and to report to the House and Senate Appropriations Committees
on the results of our review.

       1
         In June 2005, the OIG reported on its review of the TSC’s administration,
operations, information systems, data reliability, and accomplishment of mission-critical
functions. That report (Review of the Terrorist Screening Center, Report Number 05-27)
contains detailed descriptions of the TSC’s processes and functions.


                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


Creation of Secure Flight

       According to the TSA, the Secure Flight program improves previous
airline passenger screening programs by consolidating functions now
separately conducted by 65 air carriers transporting 1.8 million passengers
on 30,000 flights each day that leave approximately 450 airports where
security screening is required. 2

        Although the TSA originally planned to implement the Secure Flight
program in April 2005, several delays have pushed its launch date for the
initial phase (referred to as “pre-operational testing”) to the second week of
September 2005. During the initial phase, Secure Flight will involve a still
undetermined number of air carriers, and the total number of passengers
initially screened will be dependant upon the specific carriers involved. The
Secure Flight program is expected to gradually increase the number of
participating carriers, with full implementation currently scheduled for fiscal
year (FY) 2007.

Coordinating Secure Flight Efforts

      In October 2004, the TSA and the TSC jointly developed the general
process for Secure Flight screening. In January 2005, the TSC asked for and
received the assistance of a full-time TSA executive to work as the TSC
Secure Flight Program Coordinator. However, it was not until February or
March 2005 that the TSA and the TSC began to actively work together on
the Secure Flight program. At that time, regularly scheduled, joint meetings
with all key participants were initiated to define the roles of the supporting
agencies and discuss the status of Secure Flight’s development. 3

       2
           Beginning in the late 1990s, the Department of Transportation began using the Computer
Assisted Passenger Prescreening System (CAPPS I) to screen air travelers and select individuals for
enhanced security screening. Air carriers performed this screening in two ways: (1) by comparing
domestic airline passenger manifest information, referred to as passenger name records, against
certain aviation risk criteria known as the CAPPS I rules; and (2) by comparing passenger
information against two of the federal government’s watch lists: the no-fly list, which included
names of individuals that were to be denied transport on commercial flights because they were
deemed a threat to civil aviation; and the selectee list, which included names of individuals whom
air carriers were required to “select” for additional screening prior to permitting them to board an
aircraft. In March 2003, the TSA began developing the next phase of the CAPPS program
(CAPPS II). However, after significant criticism of the program, the TSA cancelled CAPPS II in
August 2004 and announced its new initiative - Secure Flight.
       3
           Aside from the TSA and the TSC, other key stakeholders include the Terrorist Screening
Operations Unit (TSOU) in the FBI Counterterrorism Division, the DHS’s Federal Air Marshal
Service (FAMS), and the Department of Defense’s North American Aerospace Defense Command
(NORAD). The TSOU will coordinate any necessary law enforcement response to anticipated or
realized encounters with individuals who are a match against a watch list record. The FAMS will
monitor and resolve any on-board activity of flights in progress, while NORAD will monitor affected
flights and take any necessary airspace actions.

                                      ii
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



       TSA officials told us that they are satisfied with the TSC’s support of
the Secure Flight program and believe that the TSA and the TSC have a
positive partnership. However, TSC officials believe that their ability to
prepare for the implementation of Secure Flight has been hampered by the
TSA’s failure to make, communicate, and comply with key program and
policy decisions in a timely manner, such as the launch date and volume of
screening to be conducted during the initial implementation phases.

Planning for Operational Changes at the TSC

       The TSC recognizes that the Secure Flight program will significantly
increase TSC’s call center activity. When Secure Flight becomes operational,
the TSC will perform many of the same processes currently conducted for
calls received from state and local law enforcement, border inspectors and
agents, as well as government agents abroad. However, the TSC anticipates
a significantly greater operational work load as a result of Secure Flight and
an increased need for staff, space, and funding.

Organization

      The TSC developed three sub-teams to ensure that it properly
addressed all areas of support for the Secure Flight program – an operations
team, an information technology (IT) team, and a policy/legal team. These
teams meet on a weekly basis with the TSC Secure Flight Program
Coordinator to discuss the status of their projects and to prioritize their
work.

Funding

        The TSC’s total funding for FY 2005 is $64.23 million – $29 million in
base funding and an additional $35.2 million obtained through the FY 2005
Emergency Supplemental Appropriations Act. These additional funds were
provided by Congress for Secure Flight and other unspecified TSC
infrastructure improvements. In its FY 2006 budget request, the FBI again
requested $29 million in base funding for the TSC. However, in November
2004 the FBI requested an out-of-cycle budget enhancement of $75 million
for TSC improvements, preparations for Secure Flight, and other TSC
initiatives, bringing the TSC’s total funding request for FY 2006 to
$104 million.

      Officials in the TSC Administration Branch stated that Secure Flight
cannot operate without substantial modifications to the TSC’s existing
IT environment, including greater infrastructure as well as capability
enhancements to the TSDB and the TSC’s Encounter Management

                                  iii
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


Application (EMA). 4 But the TSC could not provide the exact costs of
modifications required to support Secure Flight because, according to the
TSC, the organization had planned to make many improvements to its
operations and information technology environment prior to Secure Flight.
When Secure Flight was announced, the TSC considered the program’s
needs in determining and refining the necessary modifications to its
databases and processes. TSC officials told us that they were unable to
disentangle Secure Flight-prompted funding needs from those necessary for
other planned changes to existing TSC systems and operations because
Secure Flight enhancements were fully integrated with other anticipated
modifications. The current immature state of the TSC’s IT environment
makes specifically identifying Secure Flight enhancements more complex
because the TSC’s systems continue to evolve. Our June 2005 report noted
this immaturity and included 16 recommendations related to the TSC’s IT
systems, planning, and operations.

      The Director of the TSC informed us that she agrees that the TSC
needs to identify its Secure Flight funding needs separately from other TSC
endeavors. Additionally, she acknowledged that because certain
requirements of the TSC’s overall systems, staffing, and procurements are
paid by other federal agencies or divisions within the FBI, the TSC is
unaware of how much the organization truly costs to run. The Director
stated that she recognizes the importance of having designated budget staff
to perform budget formulation, analysis, and execution, but the TSC does
not currently possess the expertise to perform these functions.

       However, as a result of our discussions with the Director of the TSC
and her staff in July 2005 about the TSC’s inability to determine the cost of
implementing Secure Flight, the TSC informed us that it would make another
attempt to estimate its Secure Flight costs. Subsequently, the TSC
formulated a methodology to attempt to identify the percentage of the total
call volume, customers, and staff at the TSC that were expected to be
related to Secure Flight. These percentages were applied to budget
categories to allocate the costs of each category and added to those costs
directly and solely related to Secure Flight to estimate the overall cost of
supporting the program.

      According to this methodology, $8,034,732, or 12.5 percent, of the
TSC’s $64.23 million in funding for FY 2005 is in direct support of the Secure


       4
           EMA is the TSC’s tool for recording the details of all incoming calls to its call center
resulting from government encounters with individuals that appear to be a hit against a watch list
record. Call center staff record the information they receive from the caller, the TSC determination
of whether the individual is a match with a TSDB record, whether the caller was forwarded to law
enforcement for further action, and the final disposition of the encounter.

                                      iv
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


Flight program. The TSC estimated that an additional $13,256,696, or
20.6 percent of the total, will be used for indirect costs for the Secure Flight
program. 5 This amounts to a total of $21,291,428, or 33.15 percent of the
total funding for Secure Flight in FY 2005. For FY 2006, the TSC estimated
that its expected expenditures directly related to Secure Flight will amount
to $11,417,869, or 11.6 percent of the budgeted resources. Indirect costs
for Secure Flight in FY 2006 are expected to amount to $26,099,699, or
26.4 percent of the total TSC planned spending for FY 2006. Therefore,
according to the TSC, the total cost for Secure Flight (direct and indirect) in
FY 2006 is projected to amount to 38 percent ($37,517,568) of the total
requested TSC budget.

            SUMMARY OF FY 2005 AND FY 2006 TSC SPENDING PLAN
                                               FY 2005             FY 2006 6
           BUDGET
             Base                              $29,000,000         $29,000,000
             Supplemental                       35,230,000                     NA
             Enhancement                                 NA          75,000,000
                                Total          $64,230,000        $104,000,000
           SPENDING
             Direct Secure Flight               $8,034,732         $11,417,869
             Indirect Secure Flight             13,256,696           26,099,699
             Non-Secure Flight                  42,938,572           61,217,432
                                Total          $64,230,000         $98,735,000
       Source: Terrorist Screening Center, July 2005


      We were unable to perform transaction testing or an in-depth analysis
of the cost breakdowns provided by the TSC because the information was not
provided until July 18, 2005. The TSC also has not been able to adequately
estimate its projected workload increase due to TSA’s failure to provide a

       5
           The costs identified as direct include expenditures that are fully attributable to
Secure Flight. The indirect costs represent areas in which the TSC has planned for changes to
its general organization and infrastructure and a portion of those modifications has been
charged to Secure Flight based on the percentage of the total call volume, customers, and
staff at the TSC expected to be related to Secure Flight activities.
       6
         The spending information includes all non-personnel funding included in the FY 2006
budget submission for the TSC. An additional $5,265,000 was requested for an increase in
the number of full-time equivalent FBI positions assigned to the TSC. The TSC did not include
any personnel figures in the spending information that it gave to us because all its positions
are provided by the participating agencies, such as the FBI or the DHS.

                                      v
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


reliable and definitive implementation schedule for the Secure Flight program
as a whole. Moreover, the TSC’s total and indirect costs are based upon
assumptions of growth in areas outside of Secure Flight, and in this review we
did not examine these non-Secure Flight enhancements.

       Given these factors, we are unable to reach a conclusion as to the
accuracy of the financial information the TSC provided our auditors to explain
its direct and indirect costs of implementing Secure Flight. We recommend
that the TSC develop the capacity to produce more accurate financial and
budgetary projections that identify its Secure Flight funding needs separately
from other TSC endeavors. However, as it stands currently from the
information provided, the OIG cannot determine how much of the $75 million
out-of-cycle budget enhancement requested by the TSC for FY 2006
appropriately reflects the TSC’s actual anticipated expenses for Secure Flight
versus other enhancements.

Planning for Secure Flight Information Technology

      We were told by TSC officials that it initially appeared that the TSA did
not plan for the TSC to be directly involved in the Secure Flight screening
process. The TSA assumed that it would be responsible for conducting all of
the electronic searches as well as all human vetting for terrorist screening
related to domestic air travel. Under this scenario, the TSC’s role would be
limited to providing a copy of its consolidated watch list database to the TSA.
However, according to TSC officials, the TSA’s plan did not account for
having to communicate the results of the Secure Flight matches to the law
enforcement agencies responsible for responding to hits against the watch
list.

      Besides omitting arrangements for any necessary law enforcement
response, the TSA neglected to plan for the complex process of record
additions, deletions, and modifications made to the TSDB on a continual
basis. According to the TSC’s IT officials, this oversight resulted from the
TSA’s initial assumption that it would receive a relatively static copy of the
TSDB against which the TSA would compare the passenger data obtained
from the airlines.

       Once the TSA and the TSC agreed on the TSC’s necessary role in the
screening process, many of the processes that the TSA had already developed
had to be re-designed and re-tooled. For example, although TSC officials
reported that in May 2005 the TSA began to communicate more openly and
proactively with the TSC, in the middle of June, just weeks prior to the
original laboratory testing date, the TSA identified problems with the data file
formats that are critical for transmission of passenger information from the
airlines to the TSA Secure Flight Office and the subsequent transmission of
                                  vi
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


TSA Secure Flight-determined watch list matches to the TSC. According to
TSC officials, two separate teams at the TSA designed the two processes and
apparently did not coordinate the basic file structures or consult the TSC. TSC
IT officials said that the TSA’s file format problem might not have occurred
had the standards for data exchange been established prior to designing and
developing the systems and applications.

       Officials in the TSC IT Branch said they will be prepared for the launch
of Secure Flight and have established electronic interfaces for the exchange of
data, modified the TSDB to allow for the watch list to be shared with the TSA,
and developed significant enhancements to the TSC’s current systems to
accommodate Secure Flight screening and to facilitate the necessary law
enforcement response to domestic travelers who are a match against the
watch list. The TSC stated that its plans for these actions are on track and
will be finalized before the launch of the Secure Flight program.

Other Preparations in Support of Secure Flight

       To assist individuals who believe they were inappropriately delayed or
prohibited from boarding their flights by the Secure Flight program, the
Intelligence Reform and Terrorism Prevention Act of 2004 directed the DHS to
establish a timely and fair method to appeal or correct any erroneous data in
the terrorist screening database. In response, the TSA established a new
redress office, increased its staffing, and drafted new processes and
procedures. TSA officials indicated that the TSC would play a supporting role
in the redress process, but would not have direct contact with the public.
However, the TSA and the TSC have not reached agreement on certain
important redress concepts, such as the amount and specificity of information
that is provided to redress requestors.

      In addition, the TSA and the TSC have worked together to address a
number of legal requirements for both agencies, including the issuance of
System of Records Notices (SORN), which is required by the Privacy Act of
1974. 7 On July 28, 2005, the TSC published a SORN that covers its current




       7
          The TSDB is considered a “system of records” because it contains data regarding
individuals that is retrieved by name or by some identifying number, symbol, or other piece of
information. Both the TSA and the TSC are required by the Privacy Act to publish in the
Federal Register a description of their own records as well as any new use of the information
contained therein and to provide the public an opportunity to comment. This informs the
public of the purpose for the system and includes information such as a description of the
types of individuals reflected in the records, the data collected, the reason for data collection,
the data safeguard and security processes, and rules and purposes for sharing the data.

                                     vii
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


and anticipated screening operations, including those related to Secure
Flight. 8

Conclusions

      The TSC’s Secure Flight screening responsibilities are anticipated to
begin in September 2005, when Secure Flight is launched. We found that
the TSC has designed its necessary electronic connections to accommodate
the transfer of terrorist watch list records, airline passenger information, and
screening results; developed new processes to facilitate law enforcement
responses to encounters with individuals who are a match against the
consolidated terrorist watch list; and is on schedule for testing its newly
established systems and procedures relating to Secure Flight.

       However, the TSA has repeatedly adjusted the implementation date for
Secure Flight, from April 2005 to August 2005, to the most recent target
date of September 2005. In addition, the TSA has changed its Secure Flight
implementation plan and as of July 31, 2005, is unsure how many airlines
will participate in the initial phase. As a result, neither the TSA nor the TSC
knows how many passenger records will be screened and cannot project the
number of watch list hits that will be forwarded to the TSC for action. This
shifting of critical milestones has affected the TSC’s ability to adequately
plan for its role in the Secure Flight program.

       In addition, we found that the TSC lacks the ability to identify specific
costs that are in support of the Secure Flight program. At the exit
conference for this audit, TSC officials stated that they do not currently have
the ability to project baseline budget information related to the cost of
adding Secure Flight to the TSC’s regular operations. TSC officials attributed
this lack of fundamental data to their stage of development, noting that the
organization has been in existence for less than 2 years. TSC management
stated that the TSC’s base budget of $29 million was derived from
conservative estimates developed during the organization’s earliest days and
this amount cannot meet its normal operating requirements. They further
stated that the composition of the TSC as an intergovernmental organization
within the FBI makes the situation more complex. In addition, TSC officials
stated that the structure of the FBI’s financial systems limits its flexibility in
categorizing and summarizing costs associated with its varied projects and
programs. TSC officials said that they understand the importance of being
able to discretely project and track costs by program, budget category, or
organizational unit. However, the TSC stated that it currently is unable to


       8
          Prior to the issue of its SORN, the TSC was covered by an existing FBI SORN
related to its central records system.

                                    viii
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


accurately estimate the incremental cost of adding programs that increase
the TSC’s range of operations, such as Secure Flight.

      The TSC’s difficulties in estimating the costs for Secure Flight are
exacerbated by the TSA’s failure to specifically define the scope of each
implementation phase. As a result, the TSC has been unable to adequately
project its resource requirements for responding to the expected increase in
workload.

       In sum, the TSC is trying to plan for a program that has several major
undefined parameters. Specifically, the TSC does not know when Secure
Flight will start, the volume of inquiries expected and the resulting number
of resources required to respond, the quality of data it will have to analyze,
and the specific details of the phased-in approach for taking the program
from “pre-operational testing” in September 2005 to full operational
capability in FY 2007.

       At the end of our report, we made five recommendations to the TSC to
help it support the Secure Flight program. TSC management has agreed
with our recommendations and their response to each is located in
Appendix III. Our analysis of the response is included in Appendix IV.




                                 ix
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                               TABLE OF CONTENTS

CHAPTER 1: ESTABLISHMENT OF THE SECURE FLIGHT CONCEPT..... 1
 AIRLINE PASSENGER PRESCREENING ........................................................... 2
 CREATION OF SECURE FLIGHT ................................................................... 3
   Implementation Plan for Initial Operating Capability ........................... 3
 SECURE FLIGHT OVERVIEW ...................................................................... 4
CHAPTER 2: TSC’S PREPARATIONS TO SUPPORT SECURE FLIGHT ... 6
 COORDINATING SECURE FLIGHT EFFORTS ..................................................... 6
 PLANNING FOR OPERATIONAL CHANGES AT THE TSC......................................... 8
   Formation of TSC Secure Flight Working Group .................................. 8
   Funding for Secure Flight ................................................................ 9
 PLANNING FOR SECURE FLIGHT-RELATED INFORMATION TECHNOLOGY................... 14
   TSC and TSA IT Coordination ........................................................ 15
   Secure Flight IT Processes ............................................................ 18
 PLANNING FOR LEGAL AND POLICY ISSUES IN SUPPORT OF SECURE FLIGHT ............. 21
   Legal Considerations .................................................................... 21
   Redress...................................................................................... 23
   Quality Assurance ........................................................................ 24
CHAPTER 3: OIG CONCLUSIONS AND RECOMMENDATIONS ........... 26
 RECOMMENDATIONS ............................................................................ 27
APPENDIX I: AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY ...... 29
APPENDIX II: ACRONYMS USED THROUGHOUT THE REPORT......... 31
APPENDIX III: FEDERAL BUREAU OF INVESTIGATION RESPONSE. 33
APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL ANALYSIS
AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT .......... 39




                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


CHAPTER 1: Establishment of the Secure Flight Concept

      The need to strengthen commercial aviation security escalated after
the attacks of September 11, 2001. Among other security measures, the
U.S. government has sought to enhance the prescreening of passengers
before they board commercial airliners at airports across the country.

      The National Commission on Terrorist Attacks Upon the United States
(9/11 Commission) recommended that the Transportation Security
Administration (TSA) within the U.S. Department of Homeland Security
(DHS) assume the responsibility for screening commercial airline
passengers, and that the DHS use information contained within federal
government watch lists to do so. 9 The 9/11 Commission further
recommended that air carriers be required to provide the TSA with the
necessary passenger information to conduct such screening. Shortly
thereafter, the Intelligence Reform and Terrorism Prevention Act of 2004
directed the Assistant Secretary of Homeland Security to “commence testing
of an advanced passenger prescreening system that will allow the
Department of Homeland Security to assume the performance of comparing
passenger information . . . to the automatic selectee and no-fly lists, utilizing
all appropriate records in the consolidated and integrated terrorist watch list
maintained by the Federal Government.” 10

        The Terrorist Screening Center’s (TSC) consolidated terrorist watch
list - known as the Terrorist Screening Database, or the TSDB – is intended
to be used in the Secure Flight screening process. The TSC was established
through Homeland Security Presidential Directive-6 on September 16, 2003,
and began initial operations on December 1, 2003. The TSC is a multi-
agency effort, administered by the FBI, and was created to consolidate the
government’s approach to terrorist screening. 11

      We conducted this review in response to House Report 109-072
(Emergency Supplemental Appropriations Act for Defense, the Global War on
Terror, and Tsunami Relief 2005), which directed the Office of the Inspector
General to evaluate the TSC’s plan to support the Secure Flight program and


       9
         The 9/11 Commission Report, National Commission on Terrorist Attacks Upon the
United States (July 2004)
       10
            Pub. L. No. 108-458 (2004)
       11
          In June 2005, the OIG issued a review of the TSC’s administration, operations,
information systems, data reliability, and accomplishment of mission-critical functions. This
report, Review of the Terrorist Screening Center, Report Number 05-27, contains detailed
descriptions of the TSC’s processes and functions.
                        REDACTED FOR PUBLIC RELEASE


to report to the House and Senate Appropriations Committee on the results
of our review by August 1, 2005.

Airline Passenger Prescreening

       In the late-1990s, the Department of Transportation began using the
Computer Assisted Passenger Prescreening System (CAPPS I) to screen air
travelers and select individuals for additional airport security screening. Air
carriers conducted this screening by comparing domestic airline passenger
manifest information (passenger name records) against certain aviation risk
criteria known as the CAPPS I rules. Additionally, after September 11, 2001,
air carriers began comparing passenger information against: (1) the federal
government’s “no-fly” list, which includes names of individuals who are to be
denied transport on commercial flights because they are deemed a threat to
civil aviation; and (2) the federal government’s “selectee” list, which
includes names of individuals that air carriers are required to select for
additional screening prior to permitting them to board an aircraft.

      On November 19, 2001, Congress enacted the Aviation and
Transportation Security Act, which established the Transportation Security
Administration (TSA) in the Department of Transportation. 12 On
March 1, 2003, the TSA and its management of CAPPS I was transferred to
the newly created Department of Homeland Security, as mandated in the
Homeland Security Act of 2002. 13

       Also in March 2003, the TSA began developing the next phase of the
CAPPS program, or CAPPS II, under the TSA’s Office of National Risk
Assessment. The CAPPS II program planned for transferring responsibility
for prescreening passenger information from the airlines to the federal
government. A Government Accountability Office (GAO) report compared
the CAPPS II program to its predecessor and described the new initiative as
a screening system “to perform different analyses and access more diverse
data, including data from government and commercial databases, to classify
passengers according to their level of risk (i.e., acceptable risk, unknown
risk, or unacceptable risk), which would in turn be used to determine the
level of security screening each passenger would receive.” 14 However,
another review conducted by the GAO had identified a number of problems

      12
           Pub. L. No. 107-71, §115 Stat. 597, 637 (2001)
      13
           Pub. L. No. 107-296 (2002)
      14
         Aviation Security: Secure Flight Development and Testing Under Way, but Risks
Should Be Managed as System Is Further Developed, Government Accountability Office
(GAO-05-356, March 2005)

                                     2
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


with the CAPPS II program that had not been addressed, including the lack
of critical elements necessary for sound project planning and privacy
protection. 15 TSA officials cancelled CAPPS II in August 2004 in light of a
DHS internal review of the program, the 9/11 Commission recommendation
for including the terrorist watch list in the passenger screening process, and
other factors.

Creation of Secure Flight

      Soon after the TSA cancelled the CAPPS II program, it announced the
Secure Flight initiative. This new program for prescreening domestic
commercial aviation passengers was intended to replace aspects of CAPPS II
by screening passenger records against the government’s consolidated
watch list of known or suspected terrorists maintained by the TSC.

      The TSA originally had planned to implement its Secure Flight program
in April 2005. However, TSA delayed the start of the initial passenger
prescreening operations to August 19, 2005. According to the March 2005
GAO report, the delay in the program implementation date and other
supporting TSA milestones resulted from a number of factors, including the
receipt of hundreds of comments on privacy issues related to Secure Flight.

       In early July 2005, the TSA announced another change in Secure
Flight’s implementation date. As a result of the air carriers’ request to TSA
not to implement the program before the Labor Day holiday, the TSA pushed
the launch date for the initial phase of Secure Flight (referred to as “pre-
operational testing”) to the second week of September 2005.

Implementation Plan for Initial Operating Capability

       According to the TSA, Secure Flight will result in greater effectiveness,
efficiency, and consistency by consolidating functions now separately
conducted by 65 air carriers that transport 1.8 million passengers on 30,000
flights each day from approximately 450 airports where security screening is
required. 16 TSA officials said that when Secure Flight initially begins
operations in September 2005, it will involve anywhere from one to seven

       15
           Aviation Security: Computer-Assisted Passenger Prescreening System Faces
Significant Implementation Challenges, Government Accountability Office (GAO-04-385,
February 12, 2004)

       16
           Statement of Justin P. Oberman, Assistant Administrator, Transportation Security
Administration, Secure Flight/Registered Traveler, to the Subcommittee on Economic
Security, Infrastructure Protection, and Cybersecurity, Committee on Homeland Security,
United States House of Representatives (June 29, 2005).

                                     3
                        REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


carriers. The total number of passengers initially screened will be
determined based upon the specific carriers involved. For example, in an
initial estimate using two air carriers (one major and one minor carrier), the
TSA estimated that approximately 350,000 domestic passengers would be
screened per day. This number represents approximately 20 percent of the
1.8 million total domestic airline passengers per day. In fiscal
year (FY) 2006, the Secure Flight program is expected to gradually increase
the number of carriers involved. According to the TSA, full implementation
of Secure Flight is currently scheduled for FY 2007. 17

Secure Flight Overview

       To bring air passenger prescreening under government control and
include the consolidated terrorist watch list in the screening process, the
TSA, working in conjunction with the TSC, developed an initial flow chart
that illustrated the process of exchanging critical data and the performance
of essential tasks.

       According to the flow chart, when an individual makes or changes a
flight reservation with a commercial airline, a record is created in the
airline’s reservation system. 18 [SENSITIVE INFORMATION REDACTED] prior
to the passenger’s departure, the airlines will electronically transmit a
portion of the record to the TSA Secure Flight office. 19 The Secure Flight
system will electronically compare this record against a copy of the TSDB
residing at the TSA. Possible matches against the database (called “hits”)
will be sent to a TSA Secure Flight analyst for additional review, while
records that did not result in a hit against the TSDB will be cleared with the
airline for passenger travel. For all passenger records that result in a hit
against the database, the TSA will electronically notify the airline that the
passenger cannot be issued a boarding pass. When handling hits, the TSA

       17
          TSA officials stated that of the 65 total domestic air carriers, only 19 airlines will need to
have technical connections to the TSA for Secure Flight; another 24 airlines will have indirect
connections through these 19 airlines. The remaining 22 airlines do not have electronic reservation
systems, and therefore will transmit passenger data manually to the TSA. TSA officials stated that
they expect to connect [SENSITIVE INFORMATION REDACTED] airlines to Secure Flight by spring
2006.
       18
             The passenger name record contains information including the passenger’s name,
flight itinerary, and seat assignment.
       19
            According to the TSC, when passengers book or modify their travel reservations within
[SENSITIVE INFORMATION REDACTED] of the flight departure time, the TSA automated
system will prioritize the screening of these records ahead of those for flights with later
departure dates. A TSA official stated that, in order to enable all passenger prescreening to
occur without having to delay flights, airlines will most likely be required to adhere to the general
standard that passengers must be checked in at the airport within 30 minutes of their scheduled
departure time.

                                       4
                          REDACTED FOR PUBLIC RELEASE
                             REDACTED FOR PUBLIC RELEASE


Secure Flight analyst will search the National Counterterrorism Center’s
(NCTC) Terrorist Identities Datamart Environment (TIDE) in an effort to
eliminate any false positives from these initial matches. 20

        Watch list hits that have not been cleared by TSA analysts will be
electronically transmitted to the TSC for final adjudication. The record
transmitted to the TSC will contain passenger information as well as the
results of the TSA Secure Flight analyst’s efforts to adjudicate the match.
The TSC analyst will review the record, conduct additional database
searches, and make a final determination as to whether the individual
attempting to travel is a valid match against the consolidated terrorist watch
list. 21 For encounters with individuals who are determined to be valid hits
against the watch list, the TSC will notify the appropriate responding agency.
The following chart provides an overview of the flow of information in the
Secure Flight process.

               OVERVIEW OF SECURE FLIGHT INFORMATION FLOW


                                             Hits Against
                                                 TSDB
                                                 Data                    Encounter
                 Passenger                                                 Data      Responding
                    Data      TSA - Secure                  TSC - Call                   Law
    Airlines
                                 Flight                      Center                  Enforcement
                                              Final Hit
                                                                                      Agencies
                                             Disposition
                                                Data

                                               Receipt
                                             Confirmation
                                Copy of
                              TSDB on TSA                    TSDB
                                Network
                                             TSDB Watch
                                              List Data


Source: TSC Management


       20
            The NCTC was established by Presidential Executive Order 13354 on August 27, 2004.
The NCTC is intended to serve as the primary organization within the U.S. government for
analyzing and integrating all intelligence possessed by the U.S. government pertaining to
terrorism and counterterrorism. The NCTC operates TIDE, the successor system to TIPOFF,
which was the Department of State’s database of records on known or suspected international
terrorists.

       21
           Additional database searches at the TSC constitute a check of the FBI’s Automated
Case Support (ACS) system and the FBI’s Violent Gang and Terrorist Organizations File (VGTOF).
The ACS database is the FBI’s case management program, and the VGTOF database is the FBI’s
system for tracking terrorist and violent gang information, which resides on the National Crime
Information Center (NCIC) system. Only terrorist information in the VGTOF database, not
violent gang related records, is used for screening purposes by the TSC.

                                          5
                             REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


CHAPTER 2: TSC’s Preparations to Support Secure Flight

      Since the announcement of the Secure Flight initiative in August 2004,
the TSC has begun preparations for supporting this additional terrorist
screening effort. The TSC’s role in Secure Flight involves performing tasks
similar to those it currently conducts in screening suspected terrorists at
ports of entry and within the United States. However, in preparing for the
launch of Secure Flight, the TSC has implemented a number of changes in
anticipation of a significant increase in the volume of screening requests.

Coordinating Secure Flight Efforts

        During the course of the development of the TSA’s Secure Flight
program, the TSA reorganized or restructured the office responsible for the
initiative at least two times. According to the GAO, in November 2004 the
DHS attempted to consolidate and strengthen TSA’s screening capability by
combining the Office of National Risk Assessment – which developed
CAPPS II – with the Credentialing Program Office to become the Office of
Transportation Vetting and Credentialing. In April 2005, this office was
restructured to create the Office of Secure Flight/Registered Traveler.

       According to TSC officials, this repeated restructuring has hampered
communication and coordination between the TSA and the TSC and has
impeded the TSC’s ability to fully plan for the implementation of Secure
Flight, as detailed below.

        In September 2004, officials from TSA and the TSC met to discuss
initial plans for implementing Secure Flight, and in October 2004 jointly
developed a high-level process flow chart for Secure Flight. In
December 2004, the TSC IT Branch provided the TSA with data from the
TSDB for the purpose of conducting preliminary testing related to Secure
Flight. In January 2005, the TSC asked for and received the assistance of a
full-time TSA executive to work as the TSC Secure Flight Program
Coordinator. However, it was not until February or March 2005 that the TSA
and the TSC began to actively work together on the Secure Flight program.
At that time, regularly scheduled, joint meetings with all key participants
were initiated to define the roles of the supporting agencies and discuss the
status of Secure Flight’s development. 22 TSA officials explained that this

       22
          Aside from the TSA and the TSC, other key stakeholders include the Terrorist
Screening Operations Unit (TSOU) in the FBI Counterterrorism Division, the DHS’s Federal Air
Marshal Service (FAMS), and the Department of Defense’s North American Aerospace Defense
Command (NORAD). The TSOU will coordinate any necessary law enforcement response to
anticipated or realized encounters with individuals who are a match against a watch list
record. The FAMS will monitor and resolve any on-board activity of flights in progress, while
NORAD will monitor affected flights and take any necessary airspace actions.

                                     6
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


delay resulted from their devotion of significant resources to data testing
and that they simply did not have time to coordinate with the TSC. Early
discussions included the level of information contained within the joint
concept of operations between the TSA and the TSC and the level of
participation the TSC and FBI Counterterrorism Division staff would be
expected to have in the Secure Flight process.

       In March 2005, the TSA finalized its initial Secure Flight concept of
operations. According to the March 2005 GAO report, the concept of
operations document provides “a high-level perspective of how the system
will operate and includes the roles and responsibilities of key staff and
organizations. It also provides information necessary to begin finalizing
other documents, such as system requirements.” 23 However, the GAO
reported that key operational decisions for Secure Flight had not yet been
made, such as how passenger information would be transferred from the
airlines to the TSA Secure Flight office. Since issuance of the GAO report,
the TSC has collaborated with the TSA on a revised concept of operations
document that provided for the participation of the TSC, which was finalized
on July 13, 2005. 24

       In addition to the concept of operations document, the TSC and TSA
have collaborated on a Memorandum of Understanding (MOU) intended to
outline the agencies’ respective roles and responsibilities for the Secure
Flight program. The TSC initially prepared a draft of the document and
submitted it to the TSA in May 2005. As of July 31, 2005, the document had
not been finalized.

       We spoke with officials at both the TSA and the TSC about the working
relationship that had developed between the two agencies. TSA officials
expressed their satisfaction with the TSC’s support of the Secure Flight
program and believe that the TSA and the TSC have a positive partnership.
Further, the TSA stated that the TSC had assisted the TSA significantly in its
development of processes and IT-related projects. According to TSA
officials, the relationship between the TSA and the TSC will allow for a more
consistent and unified law enforcement response to airline security incidents
and help the TSA in ensuring transportation security.

       23
         Aviation Security: Secure Flight Development and Testing Under Way, but Risks
Should Be Managed as System Is Further Developed, Government Accountability Office
(GAO-05-356, March 2005)
       24
           This concept of operations is a TSA-originated document and the TSA declined to
provide it to us until it was finalized. We received evidence of the finalization at our exit
conference with the TSC on July 26, 2005. Therefore, we were unable to examine this
document prior to the completion of our review.

                                     7
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE



       The TSC has expressed its willingness to assist the TSA in its Secure
Flight initiative. Further, despite TSC personnel initially being excluded from
the TSA’s preliminary planning for the program, we found that the TSA/TSC
relationship has evolved into a more positive working partnership. However,
TSC officials explained that their ability to prepare for the implementation of
Secure Flight has been hampered by the TSA’s failure to make,
communicate, and comply with key program and policy decisions, such as
the planned launch date and initial participation volume (discussed in
Chapter 1) and the IT connections and redress responsibilities discussed
later in this chapter.

Planning for Operational Changes at the TSC

        The Director of the TSC stated that the portion of the agency’s
activities dedicated to Secure Flight has evolved over time. She estimated
that only a small portion of the TSC’s resources were dedicated to Secure
Flight in the winter of 2004. However, the TSC’s efforts have increased
incrementally since then. The Director estimated that by mid-July 2005
about 60 to 70 percent of the TSC’s work could be attributed to preparations
for the Secure Flight program because of the impending launch of the
initiative and the large of amount of preparations underway.

       The TSC stated that once preparations for the Secure Flight program
are finalized, the program is launched, and screening begins, Secure Flight
will be an additional important TSC customer that will significantly increase
its call center activity. The TSC will perform much of the same screening
processes it currently conducts for calls from state and local law
enforcement, border patrol agents, and government agents abroad. As of
July 2005, TSC screeners were receiving about 100 inquiries per day
resulting from hits against the watch list database forwarded from these
sources. Based on information currently available, the TSC expects that full
implementation of Secure Flight will result in [SENSITIVE INFORMATION
REDACTED] additional screening inquiries per day, representing an increase
of [SENSITIVE INFORMATION REDACTED] percent of its current screening
operations.

Formation of TSC Secure Flight Working Group

       To ensure that the TSC addressed all areas of support for the Secure
Flight program, the TSC developed three sub-teams – an operations team,
an information technology (IT) team, and a policy/legal team. These teams
meet on a weekly basis with the TSC Secure Flight Program Coordinator to
discuss the status of their projects and to jointly prioritize their work.
According to the TSC, the combination of these sub-teams and the

                                 8
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


leadership of the Program Coordinator resulted in a multi-disciplined internal
working group that organized and prioritized the agency’s Secure Flight
objectives and streamlined its approach to the program.

Funding for Secure Flight

       The TSC stated that the Secure Flight program will significantly impact
its space, staffing, and funding needs. TSC officials also stated that other
TSC projects have taken a back seat while they focused on the planning and
development of Secure Flight requirements.

TSC Budget Information

      The TSC’s base budget for FY 2005 is $29 million. In addition, it
recently obtained through the FY 2005 Emergency Supplemental
Appropriations Act additional funding of $35.23 million, which the TSC will
have 2 years to spend. These additional funds were provided by Congress
for Secure Flight and other unspecified infrastructure improvements. As a
result, the TSC received a total of $64.23 million in FY 2005.

       The FBI’s initial FY 2006 budget request of $29 million for the TSC was
later supplemented in November 2005 by an out-of-cycle request of
$75 million for TSC enhancements, including a new facility, state-of-the-art
telecommunications equipment for call center operations, and preparations
for Secure Flight and other government initiatives that will result in
additional terrorist screening opportunities. Therefore, the FBI’s total
funding request for the TSC for FY 2006 amounts to $104 million.

Tracking of TSC Secure Flight Costs

       At the outset of our review, we requested an accounting of the TSC’s
expected and actual Secure Flight costs. In response, the TSC stated that
Secure Flight cannot operate without substantial modifications to the TSC’s
existing IT environment, such as the ability to handle a significant increase
in the number of screening inquiries, the development of data interfaces
with new participating agencies, improvements allowing for real-time
connectivity with users, and other necessary enhancements to the TSDB and
the TSC’s Encounter Management Application (EMA). 25 According to TSC

       25
           EMA is the TSC’s tool for recording the details of all incoming calls to its call
center resulting from government encounters with individuals that appear to be a hit
against a watch list record. Call center staff record the information they received from the
caller, the TSC determination of whether the individual is a match with a TSDB record,
whether the caller was forwarded to law enforcement for further action, and the final
disposition of the encounter.

                                     9
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


officials, they are using the Secure Flight requirements as the basis for all
modifications to the TSC’s databases and processes that have any
connection to Secure Flight. As a result, TSC officials said they could not
distinguish Secure Flight funding needs from those necessary for other TSC
system enhancements not related to Secure Flight.

       In response to our request, however, the TSC Administration Branch
prepared and provided a summary spending plan. We reviewed this
document and noted several problems. For example, the document stated
that the TSC could attribute only $1.5 million directly to the Secure Flight
program. The $1.5 million only captured estimates for contractor funding
for initial IT development, including the identification of requirements and
concept development for Secure Flight. Moreover, the document did not
specify how Secure Flight affected other expected costs or what portion of
the TSC’s activities were impacted by Secure Flight. As a result, we
expressed to the TSC the importance of more specifically allocating its costs
so that the resource requirements of discrete programs or initiatives can, at
a minimum, be estimated.

      The Director of the TSC agreed with the need to identify Secure Flight
funding needs separately from other TSC endeavors. Additionally, she
acknowledged that because certain TSC expenses, such as systems, staffing,
and procurements, are paid by other federal agencies or divisions within the
FBI, the TSC is unaware of how much the organization truly costs to
operate. The Director stated that she recognizes the importance of having
designated budget staff to perform budget formulation, analysis, and
execution, but stated that the TSC does not currently possess the expertise
to perform these functions. Given the importance of its mission and the
large amount of money it annually receives, we believe it is critical that the
TSC have a budget staff able to track its costs and requirements.

Review of Funding Information

      As a result of our discussions with the TSC Director and her staff in
July 2005, the TSC subsequently informed us that it would make another
attempt to more precisely reconstruct its estimation of Secure Flight costs.
In mid-July, we received a breakdown of FY 2005 and FY 2006 Secure Flight
direct costs as well as the indirect costs in proportion to the total costs for
the TSC as a whole.

     To separate Secure Flight indirect costs from the total costs for all TSC
programs and activities, the TSC identified the percentage of the total call
volume, customers, and staff at the TSC that were expected to be related to
Secure Flight activities. These percentages were applied to budget

                                 10
                     REDACTED FOR PUBLIC RELEASE
                              REDACTED FOR PUBLIC RELEASE


categories to allocate the costs of each category and to estimate the overall
cost of supporting Secure Flight.

       As shown in Table 1, the breakdown provided by the TSC reveals that
12.5 percent ($8,034,732) of the TSC’s $64.23 million in appropriated and
supplemental resources in FY 2005 is estimated to be in direct support of the
Secure Flight program. An additional 20.6 percent ($13,256,696) of the
total is estimated as indirect costs for the Secure Flight program. This
amounts to a total of $21,291,428 for Secure Flight-related expenses in
FY 2005, or 33.15 percent of the TSC’s total FY 2005 funding.

             TABLE 1: FY 2005 TERRORIST SCREENING CENTER RESOURCES 26
                                                                                                       Secure
                                      Secure                            Secure
                                                                                         Secure       Flight %
    Category          TSC Total       Flight          Other TSC         Flight
                                                                                      Flight Total     of TSC
                                      Direct                           Indirect
                                                                                                        Total
Building
Requirements          $          0    $          0    $          0    $          0    $          0       0.00%
Leases                     903,467               0         903,467         169,400         169,400      18.75%
Office Supplies and
Equipment               4,626,825           51,557      4,575,268         2,450,010       2,501,567     54.07%
Hardware/Software      21,664,019          829,235     20,834,784         3,941,848       4,771,083     22.02%
IT Contracts &
Reimbursable Staff     21,975,146         6,870,935    15,104,211         4,685,746    11,556,681       52.59%
Operational
Contracts &
Reimbursable Staff        9,624,437        283,005        9,341,432       1,167,679       1,450,684     15.07%
Training, Travel,
and Security              1,841,709              0        1,841,709        392,714         392,714      21.32%
Disaster Recovery         1,531,250              0        1,531,250        191,406         191,406      12.50%
Other
Requirements            2,063,147              0        2,063,147         257,893         257,893       12.50%
Total                 $64,230,000     $8,034,732      $56,195,268     $13,256,696     $21,291,428       33.15%
Source: Terrorist Screening Center, July 2005

      As shown in Table 2, the TSC estimated its FY 2006 budget
expenditures directly related to Secure Flight will amount to 11.6 percent
($11,417,869) of the resources included in the FY 2006 President’s Budget
request for the TSC. Indirect costs for Secure Flight in FY 2006 are
projected to amount to 26.4 percent ($26,099,699) of the TSC’s total
anticipated budget for FY 2006. Therefore, the total cost for Secure Flight
(direct and indirect) in FY 2006 is projected to account for 38 percent
($37,517,568) of the TSC’s total requested budget.




        26
          The direct costs shown in Table 1 reflect Secure Flight actual expenditures
through May 2005, projected expenditures for the remainder of FY 2005, and FY 2005
obligations to be paid in FY 2006.

                                          11
                              REDACTED FOR PUBLIC RELEASE
                              REDACTED FOR PUBLIC RELEASE

             TABLE 2: FY 2006 TERRORIST SCREENING CENTER RESOURCES 27
                                                                                                        Secure
                                                                           Secure
                                         Secure                                          Secure        Flight %
    Category          TSC Total                       Other TSC            Flight
                                      Flight Direct                                   Flight Total      of TSC
                                                                          Indirect
                                                                                                         Total
Building
Requirements          $     800,000   $          0    $     800,000   $     320,000   $      320,000     40.00%
Leases                    5,947,737              0        5,947,737       2,379,095        2,379,095     40.00%
Office Supplies and
Equipment              18,011,740                 0    18,011,740         9,601,258        9,601,258     53.31%
Hardware/Software      24,122,768         5,100,000    19,022,768         2,907,496        8,007,496     33.19%
IT Contracts &
Reimbursable Staff     24,417,249         3,527,885    20,889,364         7,528,284       11,056,169     45.28%
Operational
Contracts &
Reimbursable Staff     15,985,220         2,789,984    13,195,236         1,649,405        4,439,389     27.77%
Training, Travel
and Security              7,144,973              0        7,144,973       1,205,997        1,205,997     16.88%
Disaster Recovery           505,313              0          505,313          63,164           63,164     12.50%
Other
Requirements              1,800,000              0        1,800,000         445,000         445,000      24.72%

Total                 $98,735,000     $11,417,869     $87,317,131     $26,099,699     $37,517,568        38.00%
Source: Terrorist Screening Center, July 2005

       The majority of the TSC’s actual and projected Secure Flight direct
costs in both FY 2005 and FY 2006 are related to IT enhancements and
operational expenditures to support an anticipated increase in call center
activity. A significant portion of the overall program costs are percentages
of TSC enhancements and infrastructure improvements that are not related
directly to Secure Flight, but which the TSC has stated will support all of its
activities. As previously noted, the TSC budget increases for both FY 2005
and FY 2006 were to support Secure Flight and other initiatives.

       We were unable to perform transaction testing or an in-depth analysis
of the cost breakdowns provided by the TSC because the information was
not provided until July 18, 2005. The TSC also has not been able to
adequately estimate its projected workload increase due to the TSA’s failure
to provide a reliable and definitive implementation schedule for the Secure
Flight program as a whole. Moreover, the TSC’s total and indirect costs are
based upon assumptions of growth in areas outside of Secure Flight, and in
this review we did not examine these non-Secure Flight enhancements.

      Given these factors, we are unable to reach a conclusion as to the
accuracy of the financial information the TSC provided our auditors to
explain its direct and indirect costs of implementing Secure Flight. We

        27
           This budget includes all non-personnel funding included in the FY 2006 budget
submission for the TSC. An additional $5,265,000 was requested to enhance the number of
full-time equivalent FBI positions assigned to the TSC. The TSC did not include any
personnel figures in the information that it provided to us because all of its positions are
provided through the participating agencies, such as the FBI or the DHS.

                                          12
                              REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


recommend that the TSC develop the capacity to produce more accurate
financial and budgetary projections that identify its Secure Flight funding
needs separately from other TSC endeavors. However, as it stands currently
from the information provided, the OIG cannot determine how much of the
$75 million out-of-cycle budget enhancement requested by the TSC for
FY 2006 appropriately reflects the TSC’s actual anticipated expenses for
Secure Flight versus other enhancements.

       At the exit conference for this audit, TSC officials stated that they do
not currently have the ability to project baseline budget information related
to the cost of adding Secure Flight to the TSC’s regular operations. TSC
officials attributed this lack of fundamental data to their stage of
development, noting that the organization has been in existence for less
than 2 years. TSC management stated that the TSC’s base budget of
$29 million was derived from conservative estimates developed during the
organization’s earliest days and this amount cannot meet its normal
operating requirements. They further stated that the composition of the TSC
as an intergovernmental organization within the FBI makes the situation
more complex. In addition, TSC officials stated that the structure of the
FBI’s financial systems limits its flexibility in categorizing and summarizing
costs associated with its varied projects and programs. TSC officials said
that they understand the importance of being able to discretely project and
track costs by program, budget category, or organizational unit. However,
the TSC stated that it currently is unable to accurately estimate the
incremental cost of adding programs that increase the TSC’s range of
operations, such as Secure Flight.

Delayed Projects

       According to the TSC, it has been forced to delay the implementation
of security measures, database enhancements, and quality control
improvements to provide support for the launch of Secure Flight. TSC
officials informed us that such delays will impact the accuracy,
completeness, thoroughness, and security of the consolidated watch list
information. TSC officials said that the following projects were delayed
because of Secure Flight:

   •   Implementation of a new version of the TSDB, which was to provide
       real-time updates to the National Crime Information Center database;

   •   Enhancement of the TSDB through the development and inclusion of
       stringent information system rules over data integrity;



                                13
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


   •   Repair of the interface with a participating agency database to allow
       for the necessary electronic transfer and receipt of updated data;

   •   Development of direct connections between the TSDB and its
       customers, allowing for real-time watch list queries;

   •   Enhancements to the encounter management system to streamline
       and automate certain procedures involved in the quality assurance
       process;

   •   Preparations for and installation of a firewall that will improve the
       security of the TSDB; and

   •   Over 40 individual modifications to the TSDB software to improve the
       system for use within the TSC Nominations Unit.

       Each of the projects listed above relate directly or indirectly to the
findings and recommendations in our June 2005 report. We are tracking the
TSC’s accomplishment of these items through that report and have observed
that these projects have incurred delays. At the exit conference, TSC
officials reported that several of the delayed projects have been initiated or
completed.

Planning for Secure Flight-Related Information Technology

        As reported in our June 2005 audit of the TSC, the TSC was operating
in an immature IT environment when it hired a Chief Information Officer
(CIO) in August 2004. Our previous report included 16 recommendations
related to the TSC’s IT systems, planning, and operations. In an effort to
develop and stabilize the IT environment in preparation for implementation
of the Secure Flight program, the CIO has spearheaded a number of
initiatives.

       First, TSC officials have begun to develop an IT-specific strategic plan
that identifies nine major objectives related to issues such as security, life
cycle planning, and data accuracy and completeness. The TSC intends to
incorporate this IT-specific information in its overall strategic plan, which is
also in development. 28




       28
           In our June 2005 report, we recommended that the TSC develop a formal,
comprehensive strategic plan. We are tracking the TSC’s progress in achieving this
objective.

                                   14
                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


       Second, in order to streamline IT functions, the TSC has reorganized
its IT Branch into four areas – engineering, project management,
applications, and operations. The engineering area designs the top-level
physical IT system, drafts diagrams of the general construction of the
system, and conceptualizes security architecture. The project management
area plans, schedules, and tracks various IT-specific projects and assists
with all types of TSC projects, such as scheduling and tracking the TSC’s
proposed move to a new facility. The applications area manages software
development, including determining user requirements and designing,
testing, and deploying the programs. The operations area provides
maintenance and support for the TSC’s data systems, applications, and
users.

       In addition, the TSC established an office responsible for developing
business/data rules to ensure the integrity of the watch list data. This office
will assist in the TSC’s quality assurance efforts and have responsibility for
ensuring that the TSA Secure Flight office has an up-to-date watch list at all
times.

      We believe that these initiatives will assist the TSC in enhancing its IT
environment. A better-functioning IT environment is critical to the smooth
introduction of the TSA Secure Flight program into the TSC’s operations.

TSC and TSA IT Coordination

       TSC officials said that it initially appeared to them that the TSA did not
plan for the TSC to be directly involved in the Secure Flight screening
process. The TSC officials said that the TSA assumed that it would be
responsible for conducting all of the electronic searches and vetting for
terrorist screening related to domestic air travel. Under this scenario, the
TSC’s role would be limited to providing a copy of the consolidated watch list
database to the TSA. However, according to TSC officials, the TSA’s initial
plan did not account for communicating vetting results to the law
enforcement agencies responsible for responding to hits against the watch
list. The TSC, which derives its authority from Homeland Security
Presidential Directive-6, is the entity responsible for consolidating
government terrorist watch list screening and to facilitate any associated law
enforcement actions. Therefore, the TSC sought a broader role in the TSA’s
Secure Flight program.

       The TSC also said that the TSA initially neglected to plan for the
complex process of record additions, deletions, and modifications made to
the TSDB on a continual basis. According to the TSC’s IT officials, this
deficiency resulted from the TSA’s initial assumption that it would receive a

                                 15
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


relatively static copy of the TSDB against which it would compare the
passenger data obtained from the airlines.

      Once the TSA and the TSC agreed to the TSC’s expanded role in the
Secure Flight program, many of the processes that the TSA had already
developed had to be re-designed and re-tooled to accommodate the TSC’s
involvement. This necessitated the previously discussed revisions to the
Secure Flight concept of operations document. In addition, the TSC’s
planning for Secure Flight has been affected by several other actions and
decisions by the TSA, including:

     •   TSC officials stated that the TSA established the initial target
         implementation date of August 19, 2005, based on the TSA’s initial
         concept of operations in which the TSC’s participation was limited to
         providing a copy of the TSDB to the TSA. Once the TSA and the
         TSC agreed on the TSC’s expanded role in the screening process,
         the TSC attempted to meet the TSA’s August 19 implementation
         date. TSC officials stated that the resulting compressed work
         schedule created significant risk for a project as complex as Secure
         Flight because under such a timetable project life cycles must be
         collapsed. As a result, the TSC has had to complete all aspects of
         project development in parallel, meaning that while the TSC’s IT
         staff are still attempting to determine all of the system or software
         application requirements, the same systems and software
         applications are simultaneously being designed and developed.

     •   In preparation for Secure Flight, a TSA contractor performed initial
         passenger data testing against the TSDB by comparing June 2004
         domestic passenger flight data to a December 2004 version of the
         consolidated watch list. The TSC was not heavily involved in the
         preparations for this experiment and, according to the TSC CIO,
         poor test design and data parameters resulted in higher-than-
         acceptable projections of expected matches against the database.
         Specifically, the test was initially designed to compare passenger
         names with the universe of TSDB records and resulted in an
         unmanageable number of instances in which a match could not be
         conclusively determined. In an effort to narrow the match results,
         the TSA contractor reviewed the effect of including other identifying
         information, such as passenger date of birth. The contractor then
         prepared new estimates based upon the concept of including
         passenger birthdates and limiting results to those individuals that
         matched against a TSDB name and birth date [SENSITIVE




                                16
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


           INFORMATION REDACTED]. 29 Based on this new model, the TSA
           estimated that at full implementation Secure Flight would result in
           [SENSITIVE INFORMATION REDACTED] watch list matches
           forwarded to the TSC each day.

           TSC IT officials suggested that the test could have been improved
           by [SENSITIVE INFORMATION REDACTED]. In addition, the TSC
           advised that the TSA should not use the entirety of the TSDB for its
           searches because many records in the database do not contain
           sufficient identifying information.

           The TSA and TSC subsequently agreed that the copy of the TSDB
           provided to the TSA will be limited to records containing both a full
           name and date of birth, [SENSITIVE INFORMATION REDACTED].
           As of June 14, 2005, the TSDB contained a total of 274,873 records
           and the agreed upon subset that the TSC will provide to the TSA
           Secure Flight Office amounted to 120,382 records. Based upon the
           reduced size of the database, the TSC currently is projecting it will
           receive an additional [SENSITIVE INFORMATION REDACTED]
           screening inquiries per day from the Secure Flight program.

           However, because the TSA has not yet issued the necessary
           regulation to require airlines to collect date of birth information
           within domestic travel reservations, the TSC does not know whether
           the database queries during the first phase of the program will be
           aided by the inclusion of passenger birth dates.

      •    In an effort to formalize and standardize its systems development
           processes, the TSC initiated development of an Interface Control
           Document. The Interface Control Document is a written agreement
           that establishes organizations’ expectations and arrangements
           regarding how their information systems will connect, interact, and
           operate. The TSC drafted an Interface Control Document in
           conjunction with the TSA; however, according to TSC IT officials,
           the TSA was hesitant to commit to the overall planning process
           necessitated by the Interface Control Document concept. Because
           the document was not finalized until July 7, 2005 – well into the
           Secure Flight development phase – the TSA and TSC IT systems
           were developed without mutually agreed-upon standards.




      29
         This concept was reviewed in a hypothetical setting because the June 2004 airline
passenger records did not include dates of birth.

                                   17
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


      •    According to TSC IT personnel, the TSC has implemented the
           Terrorist Watchlist Person Data Exchange Standard (TWPDES) that
           was adopted by the intelligence community in the fall of 2004. 30
           The TSC is attempting to adhere to this established standard in all
           of its IT systems. However, as a result of the TSA’s reluctance to
           use the TWPDES, together with the compressed work schedule, the
           TSC has had to deviate from the TWPDES and modify its processes
           and file structure for exporting data to the TSA. Although the TSC
           has asserted that this deviation from the accepted standard was
           necessary, we believe that it will have to be addressed in the future
           through modifications to the database interfaces between the TSC
           and the TSA.

       TSC officials reported that beginning in May 2005 coordination
between the two organizations improved greatly. However, in the middle of
June, just weeks prior to the original laboratory testing date, the TSA
identified problems with the data file formats that are critical for
transmission of passenger information from the airlines to the TSA Secure
Flight Office and the subsequent transmission of TSA Secure Flight-
determined watch list matches to the TSC. According to TSC officials, two
separate teams at the TSA designed the two processes and apparently did
not coordinate the basic file structures and did not consult the TSC. Until
the basic format was finalized in July 2005, the TSC was not certain what
data fields it would receive. TSC IT officials stated that the TSA’s file format
problem might not have occurred had standards been established and the
Interface Control Document finalized prior to developing the Secure Flight
systems and applications.

Secure Flight IT Processes

      As outlined in the Secure Flight Overview section in Chapter 1, the
domestic flight screening process involves four main data interface
connections for the transmission of: (1) passenger data from the airlines to
the TSA Secure Flight Office; (2) TSDB watch list updates from the TSC to
the TSA Secure Flight Office; (3) initial watch list match results from the TSA
Secure Flight Office to the TSC; and (4) final screening results from the TSC
to the TSA Secure Flight Office as well as to appropriate responding entities
such as the FBI Counterterrorism Division, FAMS, or NORAD. Of these four
data connections, the TSC is directly involved in three.




      30
          The TWPDES codifies the intelligence community’s protocol for the exchange of
information regarding known and suspected terrorists.

                                   18
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


       Airline Passenger Data to the TSA Secure Flight Office – The TSA
assumed responsibility for developing these data interfaces. To fully
accomplish the mission of the Secure Flight program, the TSA ultimately will
need to develop a connection between its Secure Flight Office and each
commercial airline reservation database. However, as previously discussed,
the TSA experienced internal problems regarding the development of the file
format for this data transfer. According to TSA officials, the necessary
interfaces with select air carriers will be operational to begin test operations
in September 2005.

        TSDB Watch List Updates to the TSA Secure Flight Office – After the
initial transfer of appropriate watch list records, the TSC will transmit, in
near real-time, three types of watch list record updates to the TSA Secure
Flight Office – additions, modifications, and deletions.

       The TSA has assumed responsibility for this data interface. However,
TSC IT officials stated that for their normal screening operations, they have
been working to develop an interface so that a computer system (such as
the one being developed for the TSA Secure Flight program) could connect
directly with the TSDB for terrorist screening. 31 According to the TSC
officials, this direct interface will provide for greater data accuracy, integrity,
and security for the TSDB because it eliminates the need to copy, update,
maintain, and secure the TSDB in another location. The TSC had planned to
have this capability by May 2005. The TSC officials stated that the TSA
ultimately refused the integration of this option in the Secure Flight program
because of the compressed work schedule. In order to meet the TSA’s
Secure Flight implementation deadline, the TSC was forced to delay
development of its direct interface process for its other screening customers.

      To support its current operations, the TSC established a stand-alone
network for the TSDB. In addition, on May 23, 2005, the TSC began
operating the newly created TSCNet that was established on an existing
sensitive but unclassified platform called the Open Source Information
System (OSIS). In preparation for Secure Flight, the TSC has tested a
connection between the TSDB network and the newly created TSCNet.
Further, the TSC has established a direct connection to the DHS’s network,
DHSNet, which is also on the OSIS platform. The TSC intends to use these
multiple connections to exchange TSDB records with the TSA. [SENSITIVE
INFORMATION REDACTED] provides a back-up that will automatically re-



       31
          Currently, screeners such as border inspectors or state and local police officers
access the consolidated watch list indirectly through copies of the database loaded on their
agencies’ network or computer system that are updated on a daily basis.

                                    19
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


route data transmissions in the event of a failure in the primary interface to
ensure continuation of Secure Flight operations.

      TSC IT officials said they finished testing the connection to DHSNet on
July 13, 2005, and plan to submit to the FBI CIO the necessary documents
to obtain specific accreditation for the new connection. The TSC anticipates
that this process will be fully tested and the new connections accredited prior
to the implementation of the TSA Secure Flight program.

       Watch List Matches from the TSA Secure Flight Office to the TSC – For
passengers determined to be possible matches against the watch list, the
results of the TSA’s vetting of passenger records need to be transmitted
electronically to the TSC for final adjudication. Each record (called a
Request for Action, or RFA) will contain passenger information obtained from
the airline as well as results of the analysis performed by the TSA Secure
Flight staff.

       TSC assumed responsibility for this data interface, and it modified and
enhanced its existing encounter application to create a new application,
entitled Encounter Management Application – Secure Flight (EMA SF). The
EMA SF data will be transmitted electronically to the TSA Secure Flight Office
via the TSC’s and DHS’s mutual connection with OSIS. According to TSC IT
officials, the TSC was able to enhance operational capability, minimize the
impact to its current screening customers, and conserve resources by
modifying its existing encounter management application to serve this
function.

      The EMA SF application is designed to streamline TSC functions by
electronically transmitting data and pre-populating data fields, thereby
eliminating the need to manually re-type data. Because of the compressed
implementation schedule, the EMA SF will only contain the functions
necessary to meet initial operating capability. However, according to the
TSC it will be fully operational. Over time, the TSC intends to make further
enhancements to the system to enable the sharing of more complete data.

        The TSC completed testing the prototype EMA SF application at the
beginning of June 2005. The end users, including representatives from the
TSC call center, TSA, the Federal Air Marshal Service (FAMS), and FBI
Counterterrorism Division met in mid-July 2005 and tested the design of the
application. TSC IT officials stated that user testing of the application design
is critical because the process assists in the identification of any real-life
situations that were not addressed during system design. Two additional
testing phases remain for the EMA SF application. The final testing phase is
scheduled to begin on August 2, 2005, and run for approximately 25

                                 20
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


business days. TSC IT officials anticipate that the final test phase will be
successfully concluded and the application will be ready for the
September 2005 implementation date.

      TSC Disposition of Final Watch List Hits to the TSA and Responders –
Upon receipt of the TSA’s initial vetting results, the TSC will conduct
additional screening on the passenger record, make a final determination as
to whether the individual attempting to travel is a valid match against the
watch list, and electronically return the final disposition result to the TSA
Secure Flight Office. In addition, when the TSC’s review reveals a positive
or inconclusive identity match, the TSC will communicate the available
details of the match (such as passenger name, flight information, and
handling instructions) to the law enforcement agencies responsible for
responding to the anticipated encounter with an individual on the watch list.

     The TSC assumed responsibility for this data interface and will use its
enhanced EMA SF. The new application will assist in coordinating an
appropriate law enforcement response by ensuring that all participating
agencies view the same data in near real-time.

      The TSC will use the OSIS network to enable its partners to access the
EMA SF application. According to TSC IT officials, the North American
Aerospace Defense Command (NORAD), FAMS, and the TSA have
established and tested network connections with DHSNet and OSIS. In
addition, because the TSC had an existing working relationship with the FBI
Counterterrorism Division for its normal business operations, it did not need
to establish a new network connection for TSA Secure Flight.

Planning for Legal and Policy Issues in Support of Secure Flight

      In preparation for supporting the TSA’s Secure Flight program, the TSA
and the TSC have worked together to address several legal requirements.
In addition, in an attempt to maximize terrorism screening while minimizing
passenger inconvenience, the TSC and the TSA have also begun quality
assurance and redress projects.

Legal Considerations

       According to the TSC Privacy Officer, the TSDB is considered a “system
of records” as defined by the Privacy Act of 1974, as amended, because it
contains data regarding individuals that can be retrieved by the name of the
individual or by an identifying number, symbol, or other piece of



                                 21
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


information. 32 As a result, both the TSA and the TSC are required to publish
in the Federal Register a description of their records or a new use of the
information and to provide the public an opportunity to comment. This
System of Records Notice, or SORN, informs the public of the purpose for
the system and includes information such as a description of the types of
individuals reflected in the records, the data collected, the reason for data
collection, the data safeguard and security processes, and rules and
purposes for sharing the data.

      The TSA has issued at least two SORNs for the Secure Flight program
and will need to issue an additional SORN specifically addressing TSA’s
implementation of the operational screening. According to TSA officials, this
notice will be published prior to implementation of the TSA Secure Flight
program in September 2005.

       According to TSC officials, the TSC is currently operating under an
existing FBI SORN covering the FBI’s central records system. However,
according to the TSC Privacy Officer, the TSC has elected to draft its own
SORN because of the TSC’s unique mission. On July 28, 2005, the TSC
published its SORN, which applies to Secure Flight and all of TSC’s current
and anticipated screening operations.

      In addition to the Privacy Act, both the TSC and the TSA are subject to
the E-Government Act of 2002, which discusses the need to conduct and
publish, as appropriate, Privacy Impact Assessments (PIA). 33 A PIA relates
specifically to an IT system that collects, maintains, or disseminates
personal information about members of the public who are not government
employees, agencies, or instrumentalities. The PIA informs the public about
issues such as affected individuals, types of information collected, and
information safeguard procedures.

       The TSA has published multiple PIAs for the Secure Flight program and
will need to conduct an additional PIA specifically addressing the
implementation of the operational screening. According to TSA officials, this
notice will be published prior to implementation of the TSA Secure Flight
program in September 2005. The TSC Privacy Officer stated that she has
begun to conduct and draft a PIA for all TSC IT-programs. 34

       32
            Pub. L. No. 93-579 (1974)
       33
            Pub. L. No. 107-347 (2002)
       34
          According to the TSC Privacy Officer, the TSC initially conducted and drafted a PIA
during the initial stages of its standup, but this draft became obsolete because the TSC’s
IT-related systems were changing quickly. TSC officials noted that the E-Government Act
exempts systems containing national security and sensitive information, such as the TSDB,
from the requirement to conduct a privacy impact assessment.

                                     22
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


Redress

       To assist individuals who believe they were inappropriately delayed or
prohibited from boarding their flights because of the Secure Flight program,
the Intelligence Reform and Terrorism Prevention Act of 2004 (the Intelligence
Reform Act) directed the DHS to establish a timely and fair method to appeal
these determinations and to correct any erroneous data found in the terrorist
screening database. To provide domestic airline passengers a redress
process, TSA officials indicated that they would expand and enhance existing
procedures for individuals raising issues with flight problems related to the no-
fly, selectee, and CAPPS I screening processes that have been in existence for
several years. To augment its redress operations, the TSA stated that it
established a new office, increased its staffing, and drafted new processes and
procedures.

       According to the TSA, the TSC will play a supporting role in the redress
process and will not have direct contact with the public about these issues.
When an individual submits a request for redress to the TSA, the individual
will be required to provide specific, verifiable identifying information such as
passport or visa number, birth certificate number, or driver’s license
number. The TSA will review available information, request TSC assistance
in obtaining more detailed investigation-specific data if necessary, and
respond to the redress requestor. If the individual is determined to be a
false positive (a close enough match to a TSDB record that will result in a hit
against the watch list despite the person not being a true match of the
watch-listed individual), the TSA may place the person on a “cleared list”
that includes the individual’s additional identifying information. This cleared
list will be included in the airline screening process and may therefore speed
the process for these individuals during subsequent attempts to travel.

      Because the responsibility for fully establishing and implementing
redress policies and procedures rests with the TSA, we could not review the
plans for enhancing this area as it relates to the Secure Flight program. 35

       35
           During our review TSC officials expressed concern regarding one aspect of the
redress process. TSA officials have asserted that the Intelligence Reform Act requires the
agency to inform redress requestors of the specific results of the inquiry – whether the
requestor’s name is on a government watch list or is similar to a name on the watch list. TSC
officials believe that the TSA’s interpretation of the legislation is overly broad and the integrity
and effectiveness of the watch lists will be irreparably damaged if the TSA releases such
details to the public. The TSC stated that officials from the FBI Counterterrorism Division,
NCTC, Central Intelligence Agency Office of the General Counsel, and the counsel to the
Director of National Intelligence have expressed similar concerns. At the exit conference, TSC
officials reported that they believed the TSC and the TSA had reached an agreement in
principle on this issue. However, the TSC stated that the agreement was not yet final and
that details still need to be addressed.

                                     23
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


However, we found that the TSC had devoted significant effort to enhancing
its own activities related to the redress process. In July 2005, the TSC
Privacy Officer issued a revised protocol outlining the TSC’s procedures for
handling redress inquiries. In addition, the TSC provided us with evidence
that appropriate TSC staff had received training on the new protocol.

Quality Assurance

      In the June 2005 OIG report on the TSC, we identified errors,
omissions, and inconsistencies in the TSDB. As a result, the TSC is currently
performing a review of all TSDB records in the database for accuracy and
completeness. The TSC has initiated a major quality assurance effort to
ensure that all records are analyzed through a record-by-record search, in
order of highest priority first. TSC officials have stated that this effort will
verify the integrity of historical TSDB data and allow the quality of new data
to be controlled through the automated processes included in the most
recent version of the TSDB. However, TSC officials stated that they believe
many errors and omissions in the records are directly attributable to the
records received from the source and nominating agencies and that these
inaccuracies contribute significantly to the overall reliability of the TSDB.

       The TSC’s record-by-record review will likely not be completed before
Secure Flight is implemented. In addition, as of April 2005, the head of the
TSC Data Management Office has been assigned full time to Secure Flight-
specific issues. The TSC CIO expressed concern that, as a result, the watch
list data was not being checked sufficiently for accuracy and that available
and necessary security measures had not been implemented.

       The compressed time frame of our review did not allow us to perform
additional testing on the TSDB records. However, while conducting our
fieldwork at the TSC, we were informed of a recent incident in which a
participating agency combined two separate records and forwarded the data
to the TSC as a single record for inclusion in the TSDB. As a result, the
TSDB record included erroneous identifying information and an individual
was falsely identified as a positive match against the watch list. The TSC
redress staff informed us that the TSC had identified the error, provided the
originating agency with its findings, and confirmed that the source record
was corrected.

       In addition, officials at the TSC informed us that the volume of issues
handled through the quality assurance process is increasing. To manage
this increased workload, the TSC has increased manpower by hiring new
permanent employees and temporary duty staff. Even with these
enhancements, TSC officials expressed concern regarding their ability to

                                 24
                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


manage the quality assurance process because the volume of inquiries will
greatly increase once the TSA Secure Flight program is implemented.
According to TSC officials, their Quality Assurance staff requested an
enhancement to the EMA system that would automate the tracking and
management of the quality assurance process. However, the development
of the requested enhancement has been delayed because the IT staff has
been dedicated to Secure Flight issues.




                               25
                   REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


CHAPTER 3: OIG Conclusions and Recommendations

      Upon full implementation, the Secure Flight program will be the first
time the government will routinely screen all domestic air travelers. As a
result, information about millions of domestic travelers will be collected and
compared to the consolidated watch list of terrorist information. This
process will require high standards of data accuracy and information
safeguards.

      The TSC has a significant role in Secure Flight, including helping in the
development of the overall process flow for the program, assisting in the
design of the information system architecture, establishing the roles of key
stakeholders, and ensuring that the new screening process allows for an
appropriate law enforcement response to encounters with known or
suspected terrorists. However, the implementation of the Secure Flight
program at both the TSA and the TSC has been hindered by project delays
and uncertainty about project scope, logistics, and the resources needed to
support the program’s mission.

       The TSA has repeatedly adjusted the implementation date for Secure
Flight, first from April 2005 to August 2005, and most recently to September
2005. Moreover, the TSA does not currently have a definitive plan for the
number of airlines and related passenger records that will be included in the
various phases of program implementation. The TSA’s shifting of program
scope and critical milestones has also affected the TSC’s ability to
adequately plan for fulfilling its role in the Secure Flight program. In
addition, although the TSA and TSC describe its current relationship as “a
positive partnership,” they have had to overcome communication and
coordination obstacles, including organizational changes at the TSA and the
TSA’s initial development and testing of program requirements without the
involvement of the TSC.

      In our review of the TSC’s plans for implementing its Secure Flight
responsibilities, we determined that most of its efforts are on track to meet a
projected launch date of September 2005. Specifically, the TSC has
designed its necessary electronic connections to accommodate data flow,
developed new processes to facilitate law enforcement response to
encounters with individuals who are a match against the consolidated
terrorist watch list, and is on schedule for testing its newly established
systems and procedures.

      However, the TSC has not tracked its costs that are directly in support
of the Secure Flight program and did not have a Secure Flight-specific
spending plan. Therefore, the TSC cannot accurately estimate the added

                                 26
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


costs for the Secure Flight initiative. The TSC’s difficulty in developing such
an estimate is further exacerbated by the TSA’s failure to specifically define
the scope of each implementation phase. As a result, the TSC has been
unable to adequately project its resource requirements for responding to the
expected increase in workload resulting from Secure Flight.

      Although we are unable to specifically quantify the TSC’s financial
needs, we believe that the TSC needs enhancement of its current base
funding to accomplish its mission-critical functions. According to the TSC, it
has been forced to delay the implementation of security measures, database
enhancements, and quality control improvements to provide support for the
launch of Secure Flight. TSC officials informed us that such delays will
impact the accuracy, completeness, thoroughness, and security of the
consolidated watch list information.

       In sum, the TSC has faced difficulties in trying to support a program
that has several critical undefined parameters. The TSC has little certainty
of the start date of Secure Flight, the volume of inquiries expected and the
resulting number of resources required to respond, the quality of data it will
need to analyze, and the specific details of the phased-in approach for taking
the program from “pre-operational testing” in September 2005 to full
operational capability in FY 2007.

     To help the TSC more accurately identify its funding requirements and
handle its responsibilities under the Secure Flight Program, we provide five
recommendations for the TSC.

Recommendations

We recommend that the TSC:

1.    Work closer with the FBI budget staff or develop an in-house capacity
      to formulate, execute, and track a TSC budget that captures cost
      information by program and accounts for the total fiscal requirements
      of the organization;

2.    Re-examine and regularly update the agency’s resource estimates as
      soon as the Secure Flight program is implemented and true workload
      figures are established;

3.    Coordinate with the TSA to adopt the Terrorist Watchlist Person Data
      Exchange Standard protocols for data exchange;



                                27
                    REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


4.   Develop an aggressive schedule for the completion of the record-by-
     record review of the TSDB and encourage participating agencies to
     improve the quality of all watch list source records to improve overall
     data accuracy, completeness, and thoroughness; and

5.   Implement, in priority order and as appropriate, the projects that are
     currently on hold while planning for Secure Flight because these
     projects have significant implications for data integrity, security, and
     system efficiency.




                               28
                   REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                APPENDIX I
       AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

Audit Objective

      The objective of our review was to evaluate the TSC’s plan to support
the Secure Flight program, as requested by the House Appropriations
Committee in House Report 109-072.

Scope and Methodology

      We performed our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and
accordingly, included such reviews of records and procedures that we
considered necessary. Our audit covered, but was not limited to, activities
during the period beginning with the announcement of the Secure Flight
program in August 2004 through July 2005. The scope of our review did
not include reviewing the TSC’s overall compliance with laws and
regulations or its internal control structure.

       To accomplish our objectives, we conducted work primarily at the
TSC (located in the Washington, D.C., metropolitan area) and interviewed
contractors and representatives from various participating TSC
departments working within the Operations Branch, Information
Technology Branch, Administration Branch, the Terrorist Screening Tactical
Operations Center or TSTOC (previously referred to as the Call Center),
Nominations Unit, and other support areas. Additionally, we met with
officials at the TSA responsible for the Secure Flight program and at the
Department of Homeland Security Office of Policy and Redress. We also
interviewed FBI officials at FBI Headquarters who previously worked in the
Budget Formulation and Presentation Unit.

      We gained a working knowledge of the TSC’s operations during our
recent audit of the TSC (for which our audit report was issued in
June 2005). During that audit we interviewed additional officials from a
variety of agencies, including the National Counterterrorism Center, the FBI
Criminal Justice Information Services Division, and the FBI Terrorist
Screening Operations Unit (formerly the FBI Counterterrorism Watch).

      Additionally, we reviewed legislative material regarding the history
of Secure Flight, program requirements, privacy and testing publications,
and memoranda, correspondence, electronic communications, and
minutes of meetings related to the TSC’s support of Secure Flight. We
also reviewed and collected financial documents, planning documents,
workload data, position descriptions, prior audit reports, and

                                29
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX I

congressional testimony. In addition, we attended numerous Secure
Flight meetings at the TSC that were attended by key individuals from the
TSA, FBI/TSOU, and the TSC.




                                30
                    REDACTED FOR PUBLIC RELEASE
              REDACTED FOR PUBLIC RELEASE
                                                       APPENDIX II

      ACRONYMS USED THROUGHOUT THE REPORT

ACS           Automated Case Support

CIO           Chief Information Officer

CAPPS         Computer-Assisted Passenger Prescreening System

DHS           Department of Homeland Security

EMA           Encounter Management Application

FAMS          Federal Air Marshal Service

FBI           Federal Bureau of Investigation

FY            Fiscal Year

GAO           Government Accountability Office

ICD           Interface Control Document

IT            Information Technology

MOU           Memorandum of Understanding

NCIC          National Crime Information Center

NCTC          National Counterterrorism Center

NORAD         North American Aerospace Defense Command

OIG           Office of the Inspector General

OSIS          Open Source Information System

OTVC          Office of Transportation Vetting and Credentialing

PIA           Privacy Impact Assessment

RFA           Request for Action

SORN          System of Records Notice

TIDE          Terrorist Identities Datamart Environment

TSA           Transportation Security Administration

TSC           Terrorist Screening Center

                        31
            REDACTED FOR PUBLIC RELEASE
         REDACTED FOR PUBLIC RELEASE
                                                  APPENDIX II

TSDB       Terrorist Screening Database

TSOU       Terrorist Screening Operations Unit

TWPDES     Terrorist Watchlist Person Data Exchange Standard

VGTOF      Violent Gang and Terrorist Organizations File




                     32
         REDACTED FOR PUBLIC RELEASE
        REDACTED FOR PUBLIC RELEASE
                                      APPENDIX III

FEDERAL BUREAU OF INVESTIGATION RESPONSE




                    33
        REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX III

   REVIEW OF THE TERRORIST SCREENING CENTER’S
  EFFORTS TO SUPPORT THE SECURE FLIGHT PROGRAM
                              Terrorist Screening Center Response
       The United States (US) Department of Justice (DOJ) Office of the Inspector General
(OIG) conducted a review of the Terrorist Screening Center (TSC) efforts to support the
Transportation Security Administration’s Secure Flight Program from April of 2005 through July
of 2005. This review was called for in the “Emergency Supplemental Appropriations Act for
Defense, the Global War on Terror, and Tsunami Relief Act, 2005.” The purpose of that review
was to evaluate the TSC’s plan to support the Secure Flight program and to report the findings to
the House and Senate Appropriations Committees by August 1, 2005.

      On July 26, 2005, the TSC received the DOJ/OIG draft report. The response by the TSC
was due to the DOJ/OIG by the close of business July 27, 2005.

Executive Summary

        The TSC was established September 16, 2003, and became operational on December 1,
2003. Since its inception, the TSC has become one of the most unique, innovative and forward
thinking operations in the United States Government’s (USG’s) counterterrorism arsenal. Never
before has the USG maintained a centralized list of all known or suspected terrorists that is
available to federal, state, local, tribal and territorial law enforcement agencies, as well as a
growing list of foreign governments for the purpose of twenty four hours a day, seven days a
week terrorism screening. For the first time in US history, terrorist watchlist information is
shared in a multi-agency environment that also connects the intelligence community to a vast
network of state and local law enforcement officers. The TSC’s novel approach to terrorism
screening facilitates assistance to agencies at the front lines of terrorism screening, protection of
the American public from terrorist attack, increasing the safety of the American people as well as
the law enforcement officers who serve them. The TSC is a new concept and is a living and
growing environment that is constantly evolving to meet emerging threats and requirements
within the framework of its governing documents, Homeland Security Presidential Directive
(HSPD) - 6, the Memorandum of Understanding (MOU), and Addendum A. Moreover, the
watchlisting process is a new initiative that is Government-wide. Each agency has the
responsibility to provide accurate information when nominating a name for the watchlist.
Because this government wide system was never in existence, the quality of data provided for
watchlists varies from agency to agency. However, as the process matures there will be greater
consistency in the quality of data passed.

        A central mandate to the TSC mission is to consolidate the Government’s approach to
terrorism screening. A significant area of terrorism screening that has gone unaddressed is the
screening of domestic air passengers against the consolidated terrorist watchlist known as the
Terrorist Screening Database (TSDB) maintained by the TSC. To close this gap in terrorism
screening, the Transportation Security Administration (TSA) announced the establishment of the


                                      34
                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                             APPENDIX III

Secure Flight program in August of 2004 with a view to conduct passenger prescreening against
the
       TSC’s TSDB in 2005. For this program to be successful, the TSC, in accordance with
HSPD-6, must provide direct support to the TSA and its Secure Flight program. However, for
the TSC to provide appropriate support, close coordination between the two agencies is
necessary, and TSA is responsible for providing its program requirements.

       In August 2004, when the Secure Flight program was announced, TSC immediately
began to make budget plans based on information that TSA provided regarding their information
technology, operational and administrative requirements related to Secure Flight. Secure Flight
was only one of several new initiatives the TSC had to support; however, because of the volume
of passengers flying on domestic flights, it will have a dramatic impact on TSC’s operations.

        The TSC prepared for the new initiatives by establishing an information technology
infrastructure, personnel base, and long range planning processes. The Secure Flight program
came while TSC was still a fledgling organization, and had no regular, routine, or predictable
workload. In order to be able to accurately predict the Secure Flight workload, TSA was unable
to provide to the TSC specific estimates such as volume of calls, volume of passengers traveling,
information systems architecture, scope of projects, logistics and other resources. However,
even without this information, the TSC continued to prepare for Secure Flight based on
conservative estimates of these data elements. Due to the uniqueness of the TSC’s inter-
governmental participation, the TSC leveraged its capabilities across programs and activities. It
used any available resource from any of the participating HSPD-6 partners to include personnel,
licenses, databases, hardware, software and other materials. The TSC has also taken great care
to leverage every conceivable opportunity available through its partners to increase resources,
efficiency and effectiveness, particularly in those areas where the TSC’s own budget or allocated
personnel are not sufficient to address mission requirements.

       TSC concurs with DOJ/OIG’s assessment that the TSC “needs enhancement” of current
base funding to accomplish its critical mission functions.

      With this as a short summary background, the TSC offers the following in response to the
DOJ-OIG preliminary draft review of the TSC’s plans to support the TSA’s Secure Flight
program:

Recommendation #1:

       Work closer with the FBI budget staff or develop an in-house capacity to formulate and
execute a TSC budget that captures cost information by project and tracks the total fiscal
requirements of the organization.

Response:

       The TSC agrees with this recommendation and acknowledges the need to work with the
FBI’s Finance Division to build the TSC in-house financial personnel capacity.

                                     35
                         REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX III


        The TSC was created in an out of cycle budget environment. As a result, the TSC did not
have the opportunity to participate in the budget process initially, nor did it have the background
to give a true estimate of normal operating requirements (also known as base lining). Funding
for the first fiscal year (FY) was reallocated to the Federal Bureau of Investigation (FBI) in
support of the TSC from participating agencies' FY 2004 budgets. No personnel were granted to
the TSC through the budget process to stand up or operate it. Because the budget formulation
process leads the execution phase of the budget process by two and one half years, the TSC did
not have sufficient input into a budget until January of 2005.

        However, the TSC has been diligent in its fiscal responsibility to ensure expenditures
create a maximum value to cover the array of projects requiring support and implementation
since its inception. In support of this effort, the TSC established a Project Management Office
(PMO) and supporting processes to develop project management and financial
budget/accounting tools for the purpose of projecting and tracking actual expenses. This system
allowed TSC to identify the development costs of the infrastructure that would be required to
support TSC’s maturation and identified initiatives. Due to the approach used by the TSC to
develop its infrastructure to support multiple programs, many of the projects tracked also
contribute to building the infrastructure that supports all of these programs, to include Secure
Flight. Therefore, each project generally supports multiple programs. This approach was taken
because the TSC had not received any funding related to specific programs. The supplemental
funds, while subject to DOJ/OIG review, were not solely limited to the Secure Flight program.

        The TSC was asked by the DOJ/OIG to provide specific dollar amounts associated with
the costs of preparing for Secure Flight. The TSC provided that information based on its current
methodology. Due to the fact that it did not have the TSA’s requirements, the TSC made
conservative estimates because there was no historic baseline for Secure Flight. When the
baseline for Secure Flight is established, in conjunction with all other programs the TSC is
supporting, the TSC will be able to implement an effective cost accounting system for the Secure
Flight program that will not only provide actual direct and indirect costs, but also allow for more
accurate estimates of future costs. In addition, the TSC’s “improvements to its operations and
information technology environment,” are not specifically to address Secure Flight but also to
address the other TSC supported programs.

Recommendation #2:

        Re-examine and regularly update the agency’s resource estimates as soon as the Secure
Flight Program is implemented and true work-load figures are established.

Response:

       The TSC agrees with this recommendation and will continue to coordinate these efforts
with TSA to ensure the most accurate and current data is available.




                                      36
                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                              APPENDIX III

         The TSC developed workload projection estimates for initial resource requirements to
support the Initial Operating Capability (IOC) of Secure Flight. These estimates have focused on
frontline call center personnel, supervision, and support. The estimate used for staffing is
conservative, having used the low end volume estimate for actual hiring. TSC also has a plan to
respond to a significantly increased volume of work associated with Secure Flight should that be
required. Surge capability will be achieved with TDY’s until a true baseline of volume can be
determined. Systems will be in place to collect workload volume information, and the length of
time required to work a Request for Action (RFA) will be monitored and analyzed. As the
history is accumulated and trended by the day of the week and hour of the day, the TSC will
develop a baseline for call center staffing and adjust appropriately. As soon as an air carrier
rollout plan is developed by TSA, the TSC will plan to calculate revised resource estimates as
there is an increase in carriers and volume. TSC will look to minimize additional costs as the
program grows by implementing cross utilization with other TSC products and services. Initial
training costs have been planned, and as growth is experienced TSC will continuously revise
classroom training and on the job training costs.

       With respect to IT, the development of baseline data will provide the needed information
to make any adjustments to communications, hardware, and software requirements accurately. A
number of enhancements to Secure Flight are already planned for 2006 development that will
improve efficiency of the TSC Secure Flight process. As experience with the system develops,
other best practices and modifications will be identified, and TSC will develop and implement
improvements. Also, TSA and TSC have previously agreed to Quarterly Reviews of the Concept
of Operations and Interface Control Documents as part of a structured review after standing up
the Secure Flight program. This approach will also assist in the TSC financial methodology.

       As a result of these operational and information technology evaluations taken from the
Secure Flight baseline, the TSC will recalculate financial costs of Secure Flight not only on an
immediate basis, but on a quarterly basis thereafter. This approach is already built into the TSC
financial methodology.

Recommendation #3:

       Coordinate with the TSA to adopt the Terrorist Watch Person Data Exchange Standard
protocols for data exchange.

Response:

      The TSC agrees with this recommendation and has plans to implement this
recommendation in the future.

        The TSC notes that the TSC is using the Terrorist Watch Person Data Exchange Standard
protocols, but that the TSA is not presently equipped to use this standard. However, once Secure
Flight operational testing provides realistic figures on data quantities and processing times, TSC
will work with TSA to bring their present simplified initial data exchange protocol into
conformance with the national standard used by TSC elsewhere.

                                     37
                         REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX III


Recommendation #4:

       Develop an aggressive schedule for the completion of the record-by-record review of the
TSDB and encourage participating agencies to improve overall data accuracy, completeness, and
thoroughness.

Response:

      The TSC agrees with this recommendation and has previously developed this schedule
and methodology. The TSC will endeavor to expedite this review based on its current staffing.

        On April 1, 2005, the TSC's Data Integrity Unit implemented a comprehensive record-
by-record quality assurance (QA) review of the entire TSDB and will continue this effort. The
TSC has identified priority records that will be reviewed first, since they have surfaced
continually in ongoing QA projects. Some of these records were initiated from both the FBI and
the National Counter Terrorism Center (NCTC). The NCTC is also conducting a record by
record review. As previously mentioned, the watchlisting process is a new initiative that is
Government-wide. Each agency has the responsibility to provide accurate information when
nominating a name for the watch-list. Because this government wide system was never in
existence, the quality of data provided for watch-lists varies from agency to agency. However,
as the process matures there will be greater consistency in the quality of data passed.

Recommendation #5:

        Prioritize and implement projects that are currently on-hold while planning for Secure
Flight because these projects have significant implications on data integrity, security, and system
efficiency.

Response:

       The TSC agrees with this recommendation and takes continuous action in this area.

        The TSC has been using a project management tool to track its priorities of all TSC
projects and will expand the use of this tool. From December 1, 2003, the TSC has had to
continuously and aggressively reprioritize its projects based on emerging requirements, current
events, and limited funding. This approach will continue to be used in the future.




                                      38
                          REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE REPORT

       We provided a draft audit report to the FBI and the TSC for review and
comment. The TSC’s response is incorporated as Appendix III of this report.
Although the cover letter to the response notes that FBI review for
classification issues was pending, we subsequently received written
confirmation that the report does not contain any classified information.

      The TSC concurred with the five recommendations we made in the
audit. Our analysis of the TSC’s response to each recommendation is
provided below.

Recommendation Number:

1.   Resolved. The TSC stated that it agreed with our recommendation to
     work closer with the FBI budget staff or develop an in-house capacity
     to formulate, execute, and track a TSC budget that captures cost
     information by program and accounts for the total fiscal requirements
     of the organization. In its response, the TSC stated that it needs to
     work with the FBI’s Finance Division to build the TSC’s personnel
     capacity for conducting budget and financial tasks. According to the
     TSC, its ability to estimate its Secure Flight costs has been significantly
     hampered by the lack of information from the TSA related to the
     detailed requirements of the Secure Flight program. The TSC believes
     that once Secure Flight is launched and a baseline for the program can
     be established, the TSC will be able to implement an effective cost
     accounting system for the Secure Flight program that will not only
     provide actual direct and indirect costs, but also allow for more
     accurate estimates of future costs.

     This recommendation can be closed when we receive evidence that the
     TSC has established and implemented an effective cost accounting
     system. However, the TSC needs to enhance its financial personnel
     capacity in order to develop such a system. In addition, specific and
     accurate Secure Flight cost projections are dependent upon the
     availability of valid Secure Flight operational data. In the interim,
     please keep us regularly informed of your progress in implementing
     the new accounting system and building the in-house capacity to
     operate and manage the new system to formulate accurate and
     reliable financial data.

                                39
                    REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX IV


2.   Resolved. In its response, the TSC stated that it will continue to
     coordinate with the TSA to ensure that the most current and accurate
     Secure Flight data is available. According to the TSC, it plans to
     develop baseline figures for Secure Flight and use that baseline to
     calculate revised resource estimates as Secure Flight is implemented
     and screening volume in the TSC’s call center increases. In addition,
     the TSC said it intends to continually evaluate the technological needs
     of the Secure Flight program and the need for additional
     enhancements to its IT systems or modifications to the underlying
     agreements between the TSC and the TSA. The TSC said it will use
     these operational and IT evaluations to recalculate the overall financial
     costs of Secure Flight on a quarterly basis.

     To close the recommendation, please provide us with the Secure Flight
     baseline data and evidence of the quarterly reviews of the program
     costs, needs, and agreements.

3.   Resolved. The TSC stated that it agreed with our recommendation to
     adopt the Terrorist Watchlist Person Data Exchange Standard
     (TWPDES) protocol, but noted that the TSA is not presently equipped
     to use the standard. According to the TSC, once Secure Flight
     operations have begun and reliable data on the screening volume and
     processing times are available, the TSC plans to work with the TSA to
     bring the data exchange into conformance with the TWPDES. To close
     this recommendation, please provide evidence that the TWPDES has
     been successfully adopted and the standard is adhered to in the
     transfer of TSDB data to the TSA.

4.   Resolved. In its response, the TSC stated that it agreed with our
     recommendation and will expedite the record-by-record review of the
     TSDB. The TSC also noted that the quality of watch list records is
     heavily dependent upon the quality of information provided by the
     nominating agencies and that this quality is expected to improve as
     the terrorist watch-listing and screening processes mature. According
     to the TSC, the National Counterterrorism Center, a primary source of
     terrorist records, is also conducting a record-by-record review of its
     watch list records.

     To close this recommendation, please provide evidence of your
     attempts to expedite the TSC’s record-by-record review of the TSDB.
     The TSC should establish aggressive milestones for the successful
     completion of the project and track its progress against these

                               40
                   REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX IV

     milestones. In addition, please provide documentation to support your
     interaction with participating agencies related to improving the overall
     accuracy, completeness, and thoroughness of terrorist watch list data.

5.   Resolved. The TSC stated that it agreed with our recommendation
     and is taking continuous action to reprioritize its projects. According
     to the TSC, it has been using project management software to track its
     varied projects and intends to expand the use of this tool. This
     recommendation can be closed when we receive evidence that the TSC
     has developed a plan for implementing, in priority order, the projects
     that had been placed on hold due to Secure Flight.




                               41
                   REDACTED FOR PUBLIC RELEASE
